                  U.S. Department of Agriculture

                     Office of Inspector General
                            Great Plains Region




       Audit Report

    Farm Service Agency
Disposition of Nonfat Dry Milk




                      Report No. 03099-197-KC
                               September 2006
UNITED STATES DEPARTMENT OF AGRICULTURE

          OFFICE OF INSPECTOR GENERAL


              Washington D.C. 20250




               /s/
Executive Summary
Farm Service Agency, Disposition of Nonfat Dry Milk
(Audit Report No. 03099-197-KC)

Results in Brief           The Farm Service Agency (FSA) acquires various surplus and
                           price-supported agricultural commodities, including dairy products that
                           are used to provide food assistance through domestic and foreign aid
                           programs. As part of its mission, the Commodity Credit Corporation
                           (CCC), using FSA personnel, helps in the orderly distribution of these
                           commodities. FSA’s Commodity Operations handles the acquisition,
                           procurement, storage, transportation, disposition, and distribution of the
                           commodities until they are used in domestic or foreign feeding
                           programs or sold by CCC at announced or negotiated prices or through
                           competitive bids. CCC is authorized to donate food commodities
                           acquired through price support programs or from purchases in the
                           commercial marketplace to federal, State and private agencies. Private
                           voluntary organizations distribute many of the commodities overseas.
                           Under certain circumstances CCC can donate commodities for
                           research.

                          On May 12, 2005, the former FSA Administrator requested that the
                          Office of Inspector General (OIG) perform a review of two incidents
                          related to the disposition of CCC-owned Nonfat Dry Milk (NDM). One
                          incident, in 2005, involved the sale of 15 million pounds of NDM to
                          Mississippi State University (MSU). The Administrator was concerned
                          that the sale had been made in a manner contrary to the legal advice of
                          the Office of the General Counsel (OGC). Because of his concerns, the
                          contract was voided and NDM shipments in route were diverted to
                          other authorized locations. The other incident occurred during 2003 and
                          involved the donation of 27 million pounds of NDM to the same
                          university. The Administrator asked OIG to determine whether Agency
                          officials properly followed procedures for the 2005 sale of NDM and
                          whether the 2003 donation of NDM was properly made. He also asked
                          OIG to determine if further actions should be taken.

                           During our review, we found that between February and November
                           2003, FSA donated approximately 24.7 1 million pounds of NDM to a
                           private feed mill and affiliated research center for “catfish nutrition
                           research” without (1) determining their legal authority to do so; (2)
                           understanding the relationships of the parties involved; or (3) obtaining
                           a signed agreement defining the project’s objectives and outcomes to be
                           achieved. Because of the principal contact’s relationship with MSU,

1
  The Administrator’s memorandum to OIG indicated 27 million pounds were donated; our review of shipping
records confirmed only 24.7 million pounds of NDM were donated.
USDA/OIG-A/03099-197-KC                                                                          Page i
                               FSA officials mistakenly believed they were donating NDM to the
                               university. FSA officials also believed they had authority to donate
                               CCC commodities for research purposes. It was not until additional
                               quantities were requested for donation in November 2003, that FSA
                               staff questioned whether FSA had the authority to donate such large
                               quantities of NDM to MSU. In response to this inquiry, OGC
                               determined that the CCC Charter Act authorizes the donation of CCC
                               commodities for research only when the research is conducted through,
                               or in coordination with, a U. S. Department of Agriculture (USDA)
                               research agency. No USDA research agency, however, was involved in
                               this endeavor.

                               FSA offered and donated substantially more NDM than requested by
                               the principal contact because large quantities of NDM were in CCC
                               inventory. Although only a pallet load 2 or two of NDM was initially
                               requested by the principal contact, FSA donated 24.7 million pounds
                               valued at $19.7 million. Only about 2,000 pounds were actually used in
                               a controlled research study performed by the private research entity and
                               the remainder was incorporated into catfish feed and was sold to the
                               private feed mill’s customers.

                               FSA also paid transportation costs exceeding $579,000 to deliver the
                               NDM to the feed mill and its affiliated research center. FSA charged
                               this expenditure to the Price Support Program and did not request an
                               apportionment from the Office of Management and Budget (OMB). An
                               apportionment is a process required by Title 31 of the U. S. Code
                               (U.S.C.) to authorize and monitor the disbursement of funds by
                               agencies. We requested that OGC provide an opinion as to the
                               applicability of the apportionment process with respect to expenditures
                               made by CCC and how those provisions specifically relate to the
                               expenditures for transporting CCC-owned NDM to the private feed
                               dealer. OGC opined (see exhibit B) that any expenditures incurred in
                               the disposition of such products would be subject to OMB’s approval
                               (apportionment). As such, with respect to the expenditures made for
                               transporting NDM to a private feed dealer, OGC opined that these
                               expenditures were made in contravention of the process set forth in
                               Title 31 of the U. S. Code, specifically 31 U.S.C. 1512 and 1517.

                               In November 2003, upon learning that OGC knew of no statutory
                               authority for CCC to donate NDM to universities for research purposes,
                               FSA pursued a restricted, noncompetitive sale of NDM through a
                               memorandum of understanding (MOU) with MSU. Prior to initiating
                               the sale, FSA’s staff requested clarification from the principal contact
                               of his relationship with MSU, the private feed mill and its affiliated

2
    A pallet load of NDM is approximately 2,750 pounds.
USDA/OIG-A/03099-197-KC                                                                         Page ii
                             research center. They also requested specific information on the
                             “catfish nutrition research” project. To finalize the MOU, FSA staff
                             also requested that OGC review the MOU for legal sufficiency. OGC
                             would not approve the MOU and advised that a competitive sales
                             agreement must be used in accordance with the CCC Charter Act.

                             The former FSA administrator became concerned with the incidents
                             and internal miscommunication relating to the proposed sale of
                             CCC-owned NDM and the earlier donation for research. In a
                             June 7, 2005, memorandum to the Deputy Vice President of CCC, he
                             required that any donation or sale of any CCC-owned commodity asset
                             made noncompetitively or through any non-traditional manner be
                             approved by the Administrator, or his designee, in advance of such
                             disposition. He also requested that policies and procedures be
                             developed no later than July 15, 2005, that document how sales of CCC
                             assets are to be conducted and that these policies and procedures be
                             cleared through OGC. A training program was also to be established
                             for all officials involved in the sale of CCC assets.

                             At the conclusion of our audit, these requirements had not been
                             formalized in FSA’s internal policies and procedures, or into a CCC
                             docket. 3 To strengthen FSA’s management controls over the
                             disposition of commodity inventories and to prevent miscommunication
                             and improper transactions in the future, FSA needs to establish written
                             procedures that provide the specific authorities, approvals, and disposal
                             methods and processes for sales and donations of inventory
                             commodities. These procedures need to be cleared with OGC for legal
                             sufficiency.

                             During our review, inferences were made that FSA managers continued
                             to pursue sole source dispositions of NDM to MSU because they were
                             MSU alumni. We confirmed that the Deputy Administrator for
                             Commodity Operations (DACO) and the Commodity Procurement
                             Policy and Analysis Division (CPPAD) Director were MSU alumni;
                             however, nothing came to our attention that indicated MSU benefited
                             from these transactions.

                             Because these transactions appeared to violate the CCC Charter Act, we
                             discussed the facts and circumstances associated with these transactions
                             with OIG Investigations to determine whether a criminal investigation
                             was warranted. OIG Investigations declined to schedule an
                             investigation after the U.S. Department of Justice declined to become
                             involved.

3
 A CCC docket establishes policies and delegates management responsibilities for specified activities in accordance
with the applicable statutes involved.
USDA/OIG-A/03099-197-KC                                                                                   Page iii
Recommendations
In Brief           We recommend that FSA:

                      •   Request a written legal opinion from OGC as to whether FSA
                          personnel violated applicable legal authorities in donating
                          and/or providing CCC-owned NDM to a private feed dealer and
                          its affiliated research center at no cost in 2003.

                      •   Consult with OGC as to the actions FSA and/or CCC can and
                          should take to rectify these questionable transactions, including
                          recovery of the fair market value of the commodity and
                          transportation expenditures from the private feed mill.

                      •   Develop a cohesive management control structure within the
                          Commodity Operations area for the disposition of CCC
                          commodities to include the management decision process to
                          properly evaluate sale and donation options and establish
                          management controls to ensure compliance.

                      •   Provide the facts and circumstances related to the expenditure
                          of funds for transportation and handling charges to OGC and
                          request a written legal opinion as to whether a violation of the
                          appropriations law and/or the Anti-Deficiency Act occurred.


Agency Response    FSA concurred with the issues and recommendations in the report.
                   According to FSA, the audit report highlights a serious situation
                   regarding the inappropriate disposition of 24.7 million pounds of NDM
                   in 2003 and an inappropriate sales disposition under consideration in
                   2005. During the timeframe of fiscal years (FY) 2003 through 2005,
                   FSA oversaw the disposition of over 2 billion pounds of CCC-owned
                   NDM with the related expenses.

                   FSA Commodity Operations has commenced work on implementing
                   the recommendations and will work expeditiously to complete all of the
                   required and necessary actions. The FSA response is included in its
                   entirety as exhibit C.


OIG Position       We concur with the proposed corrective actions and have accepted the
                   management decisions for all recommendations in the report. We have
                   incorporated applicable portions of the written response to the draft
                   report along with our position in the Findings and Recommendations
                   section of this report.

USDA/OIG-A/03099-197-KC                                                            Page iv
Abbreviations Used in This Report

ARS                 Agricultural Research Service
CCC                 Commodity Credit Corporation
CPPAD               Commodity Procurement Policy and Analysis Division
CRIS                Current Research Information System
CSREES              Cooperative State Research, Education, and Extension Service
DACO                Deputy Administrator for Commodity Operations
FSA                 Farm Service Agency
KCCO                Kansas City Commodity Office
MOU                 Memorandum of Understanding
MS                  Mississippi
MSU                 Mississippi State University
NDM                 Nonfat Dry Milk
NDMA                Nonfat Dry Milk Livestock Feed Assistance
NO                  National Office
OBPA                Office of Budget and Program Analysis
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
P.L.                Public Law
U.S.C               United States Code
USDA                U. S. Department of Agriculture




USDA/OIG-A/03099-197-KC                                                            Page v
Table of Contents
Executive Summary ....................................................................................................................... i

    Abbreviations Used in This Report ........................................................................................ v

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 4

    Section 1. FSA Improperly Disposed of CCC-Owned Nonfat Dry Milk .......................... 4

        Finding 1            FSA Donated NDM Valued at Nearly $20 Million to a Private Entity ........ 4
                                 Recommendation 1 .............................................................................. 10
                                 Recommendation 2 .............................................................................. 10
                                 Recommendation 3 .............................................................................. 10
        Finding 2            Potential Anti-Deficiency Violation Regarding the Expenditure of
                             Transportation Costs ................................................................................... 11
                                 Recommendation 4 .............................................................................. 14
                                 Recommendation 5 .............................................................................. 14
        Finding 3            FSA Pursued a Single Source Restricted Sale of NDM Against
                             OGC’s Advice ............................................................................................. 15
                                 Recommendation 6 .............................................................................. 19
                                 Recommendation 7 .............................................................................. 20
                                 Recommendation 8 .............................................................................. 20

    Section 2. Cohesive Management Control Structure Needed over Commodity
                  Dispositions ..................................................................................................... 21

        Finding 4            FSA Lacks Formal Decision Making Process for CCC Commodity
                             Dispositions................................................................................................. 21
                                 Recommendation 9 .............................................................................. 25
                                 Recommendation 10 ............................................................................ 26

Scope and Methodology.............................................................................................................. 27

Exhibit A – Summary of Monetary Results ............................................................................. 28

Exhibit B – OGC Opinion .......................................................................................................... 29

Exhibit C – Agency Response .................................................................................................... 33




USDA/OIG-A/03099-197-KC                                                                                                           Page vi
Background and Objectives
Background                      The Commodity Credit Corporation (CCC) is a wholly-owned
                                Government corporation created in 1933 to stabilize, support, and
                                protect farm income and prices; to help maintain balanced and adequate
                                supplies of agricultural commodities, including products, foods, feeds,
                                and fibers; and to help in the orderly distribution of these commodities.
                                CCC was originally incorporated under a Delaware charter and was
                                reincorporated in 1948, as a Federal corporation within the U.S.
                                Department of Agriculture (USDA) by the CCC Charter Act (15 U. S.
                                Code 714). CCC has no operating personnel. Its price support, storage,
                                and reserve programs and domestic commodity acquisition and disposal
                                activities are carried out primarily through the personnel and the
                                facilities of the Farm Service Agency (FSA).

                                FSA acquires surplus and price-supported commodities to supply food
                                assistance through domestic and foreign aid programs. Eligible
                                commodities include dairy products, wheat, rice, feed grains, and
                                oilseeds. For foreign food assistance programs, FSA also procures and
                                supplies commodities for overseas humanitarian and developmental use
                                under Titles II and III of Public Law (P.L.) 480, Food for Progress,
                                McGovern Dole Food for Education Program and section 416 (b) 4
                                programs. Private voluntary organizations distribute many of the
                                commodities overseas. CCC is authorized to donate food commodities
                                acquired through price support programs or from purchases in the
                                commercial marketplace to Federal, State and private agencies. The
                                commodities are used in the U. S. for feeding programs such as school
                                lunch and assistance of needy persons. In most instances, arrangements
                                are made to process the commodities into food. CCC further makes
                                available farm commodities or products in areas of acute economic
                                distress and in connection with certain major disasters. CCC also can
                                advertise sales of commodities for restricted and unrestricted uses and
                                purposes.

                                To stabilize domestic dairy prices as required under the authority of the
                                Agricultural Act of 1949, as amended, FSA purchases dairy products at
                                announced prices. The FSA’s Commodity Operations handles the
                                acquisition, procurement, storage, transportation, disposition, and
                                distribution of the dairy products until the commodities are used in
                                domestic or foreign feeding programs or sold by CCC at announced or
                                negotiated prices or through competitive bids.



4
    Section 416 (b) of the Agricultural Act of 1949, as amended.
USDA/OIG-A/03099-197-KC                                                                           Page 1
                   In Washington, D.C., the Office of the Deputy Administrator for
                   Commodity Operations (DACO) is responsible for developing policies
                   and regulations for the administration of CCC operations related to the
                   milk price support program; the storage, handling, and disposition of
                   CCC’s owned commodities; and for the export and domestic
                   commodity donation programs. DACO ensures the timely provision of
                   food products procured for domestic and international food assistance
                   programs and market development programs. Commodity Operations is
                   comprised of the Commodity Procurement Policy and Analysis
                   Division (CPPAD), the Warehouse and Inventory Division, and the
                   Kansas City Commodity Office (KCCO).

                   CPPAD formulates national policies and procedures to administer the
                   operations of the CCC related to the price support program for milk and
                   the procurement of commodities under various legislative authorities
                   specifically for donation to domestic and foreign food assistance
                   programs. CPPAD is made up of an Export Programs Branch and the
                   Domestic Programs Branch.

                   The Domestic Programs Branch formulates national policies and
                   procedures and coordinates program operations to carry out the
                   purchase and delivery of processed commodities to domestic food
                   distribution program outlets. In addition, the branch formulates national
                   policies and procedures to administer the price support program for
                   milk through the purchase of dairy products at announced prices.

                   The KCCO in Kansas City, Missouri, is responsible for managing the
                   acquisition, handling, storage, transportation, and disposition of
                   agricultural commodities to fulfill USDA and U.S. Agency for
                   International Development program commitments. Private industry
                   works in partnership with USDA and other Government agencies to
                   supply the various programs with high-quality, nutritious products that
                   meet program requirements.

                   As of September 30, 2003, CCC had approximately 1.4 billion pounds
                   of nonfat dry milk (NDM) in inventory. During Fiscal Year 2003, CCC
                   acquired approximately 634 million pounds of NDM and sold or
                   donated about 523 million pounds of NDM.

                   On May 12, 2005, the FSA Administrator requested that the Office of
                   Inspector General (OIG) perform a review and evaluate the actions of
                   FSA staff related to two incidents involving dispositions of NDM to
                   Mississippi State University (MSU) for catfish feed research. One
                   incident in 2005, involved a non-competitive sale of 15 million pounds
                   of NDM that was pursued contrary to the advice of the USDA Office of
                   the General Counsel (OGC). The sale of NDM was terminated by the
USDA/OIG-A/03099-197-KC                                                              Page 2
                               Administrator’s office upon notification that OGC had not concurred
                               with the non-competitive basis of the proposed sale. The other incident
                               involved a 27 million 5 pound donation of NDM which the
                               Administrator believed to have been made to MSU in 2003 at no cost.
                               The donation of NDM in 2003 came to light in the course of the
                               Administrator interviewing FSA staff related to events associated with
                               the 2005 proposed sale of NDM.

Objectives                     The objectives of the review were to (1) determine whether FSA
                               personnel violated CCC legal authorities in donating NDM to a private
                               feed mill and research facility for catfish feed nutrition research in 2003
                               and in pursuing a proposed sale of NDM for catfish feed research in
                               2005; (2) assess the control structure in place to guide FSA sales and
                               donations of commodities, and (3) evaluate whether FSA committed an
                               Anti-Deficiency Act violation in having paid transportation and
                               handling costs in connection with the 2003 donation without OMB
                               approval and/or the proper apportionment of funds.




5
    Our review of the shipping records only confirmed that 24.7 million pounds of NDM were donated.
USDA/OIG-A/03099-197-KC                                                                               Page 3
Findings and Recommendations
Section 1. FSA Improperly Disposed of CCC-Owned Nonfat Dry Milk



                   In 2003, FSA completed a donation of 24.7 million pounds of NDM at
                   no cost to a private research facility and feed mill in Mississippi. A
                   small portion of the NDM was used for research on catfish nutrition,
                   while the majority of it was incorporated into commercial catfish feed
                   and sold to feed mill customers. The donation was made by FSA
                   without a clear understanding of how the NDM would be used, a
                   written agreement specifying the desired outcomes, an understanding of
                   the parties involved, and clearance for legal sufficiency from the OGC.
                   FSA mistakenly believed they were donating the NDM to Mississippi
                   State University (MSU) for research. However, donations for research
                   are authorized by the CCC Charter Act only when the research is
                   conducted through, or in coordination with, a USDA research agency.
                   In this case, there was no USDA research agency involved and most of
                   the NDM donated was not used for research. FSA also paid the costs of
                   transporting the NDM to the private feed mill and research center
                   without an apportionment for the funds, thereby potentially committing
                   an Anti-Deficiency Act violation.

                   After realizing that the donation of NDM was inappropriate, FSA
                   managers, in 2005, pursued a restricted use sale through MSU with
                   deliveries of NDM to the same private entity that received the donated
                   NDM in 2003 even after being cautioned by OGC against such a sale.
                   Ultimately, the attempted sale was terminated when FSA senior
                   management became aware that the sale did not have OGC clearance.


Finding 1          FSA Donated NDM Valued at Nearly $20 Million to a Private
                   Entity

                   During 2003, FSA managers gave approval to donate CCC-owned
                   NDM for an initiative without first gaining a basic understanding of the
                   endeavor’s objectives, participants’ roles and responsibilities, or the
                   outcome to be achieved. Without determining their legal authority, FSA
                   personnel provided over 24 million pounds of NDM at no cost to a
                   private feed mill and its affiliated research center in Mississippi for its
                   use in a commercial catfish operation. FSA Commodities Operations
                   personnel mistakenly believed they were providing the commodity for a
                   research project sponsored by MSU even though the deliveries were
                   made to a private feed mill. FSA did not have formal procedures in
USDA/OIG-A/03099-197-KC                                                               Page 4
                             place for approving and processing donations of CCC-owned
                             commodities for non-traditional assistance or sale programs. With an
                             inventory of over 1 billion pounds of NDM in storage, FSA
                             management was actively seeking for innovative ways to dispose of the
                             large inventory and thereby, reduce storage costs. As a result, FSA did
                             not follow prudent business practices in donating CCC-owned
                             commodities valued in excess of $19.7 million and in a manner that
                             was consistent with the CCC Charter Act.

                             The CCC Charter Act 6 states any research financed by the Corporation
                             shall relate to the conservation or disposal of commodities owned or
                             controlled by the corporation and be conducted in collaboration with
                             research agencies of the Department of Agriculture (emphasis added).
                             The Act 7 further provides that whoever conceals, removes, disposes of,
                             or converts to their own or another’s use any property owned or held by
                             the Corporation shall upon conviction be punished by a fine of not
                             more than $10,000 or by imprisonment of not more than 5 years.

                             No Binding Agreement and Lack of Understanding By Parties Involved

                             FSA had no binding agreement with any of the parties it negotiated
                             with to provide CCC-owned NDM to facilitate research aimed at
                             determining the level at which NDM can be incorporated as a protein
                             supplement into commercial catfish feed. In seeking alternative outlets
                             to reduce an existing surplus of CCC-owned NDM in storage, staff
                             from the Senate Agriculture Committee, the Experiment Station located
                             at MSU, and members of the Delta Council (economic development
                             consortium) contacted a privately owned catfish feed mill and its
                             affiliated research facility located in Indianola, MS, to determine if
                             NDM could be used as a protein substitute in catfish feed. In January
                             2003, a professor from the MSU Experiment Station in Stoneville 8 ,
                             MS, contacted FSA to request a small quantity 9 of NDM to conduct
                             catfish nutrition research. The research project would entail
                             experimenting with NDM as a component in fresh water fish food by
                             using NDM as replacement for other protein ingredients. FSA
                             personnel coordinated the shipments of NDM with the MSU professor.
                             However, this professor was also a consultant for a private research
                             center, which is affiliated with the private feed mill.

6
  Commodity Credit Corporation Charter Act, 15 U.S.C. 714b, section 4. (m) as amended.
7
  15 U.S.C. 714 m (c), as amended.
8
  Stoneville, MS, is home to the Agricultural Research Center’s (ARS) Catfish Genetics Research Unit. Also,
Stoneville is the host to the Cooperative State Research, Education, and Extension Service’s (CSREES) Aquaculture
Center. The Southern Research Aquaculture Center is one of five regional aquaculture centers in the United States
sponsored by USDA’s CSREES. ARS leases office space and catfish ponds from MSU’s Experiment Station and
also leases ponds from a private research center in Indianola, MS.
9
  The initial request was for a pallet load of NDM or about 2,750 pounds of NDM.
USDA/OIG-A/03099-197-KC                                                                                  Page 5
                   From the initial contacts FSA had with the MSU professor, DACO was
                   under the impression that the MSU Experiment Station in Stoneville,
                   MS, would be conducting the research project. In an e-mail, dated
                   February 3, 2003, DACO approved a request for a sample of NDM and
                   indicated that someone from KCCO would contact the professor about
                   the logistics for receiving the sample of NDM. In doing so, DACO
                   wrote “the experiment station at Stoneville, MS in conjunction with MS
                   State Univ. is interested in experimenting with NFDM as a component
                   in fresh water fish feed.”

                   Although the Director of KCCO assured DACO that FSA had authority
                   to donate commodities for research, under the assumption that the
                   Agricultural Research Service (ARS) in Stoneville, MS, was involved
                   with the initial research, FSA made no attempt to contact ARS to
                   confirm its interest and/or involvement in the project. We queried the
                   Department’s Current Research Information System (CRIS) database
                   which identifies all USDA research projects to determine whether this
                   research project was shown. Our query did not identify the Delta
                   Western research project as a USDA research effort. We confirmed
                   with the MSU professor that ARS was not a collaborative partner in the
                   research effort involving the donated NDM.

                   Furthermore, FSA did not contact anyone else representing MSU to
                   verify its participation in the project. The professor directed the
                   shipment of NDM to be delivered to the private feed mill in Indianola,
                   MS, for processing because the Experiment Station in Stoneville, MS,
                   did not have the capability of incorporating the NDM into catfish feed.
                   Due to the close proximity to the mill, the professor stated that he
                   intended to conduct this research experiment in small ponds owned by
                   the private feed mill and the affiliated research center. While the private
                   research center also leased ponds to ARS, the actual research involving
                   the use of the NDM was not conducted in ARS-leased ponds.

                   Quantity Commitment Escalated

                   After DACO approved the initial request, KCCO transportation
                   personnel became responsible for working with the professor to
                   develop and coordinate the shipment of NDM to Indianola, MS. The
                   professor told us that during the processing and coordinating of the
                   initial shipment, KCCO officials commented on the large quantities of
                   NDM in storage and offered him substantially more NDM than he had
                   originally requested. After discussing KCCO’s additional offer with the
                   owner of the private research center, the professor accepted the offer of
                   additional NDM. The professor then worked out a delivery schedule
                   with KCCO requesting over 15,000 tons of additional NDM with
USDA/OIG-A/03099-197-KC                                                               Page 6
                   deliveries to be made from April through October 2003. In an e-mail,
                   dated March 14, 2003, the Deputy Director, KCCO, confirmed the
                   shipping schedule and indicated to the professor that: “We have a
                   number of options with regard to transporting the NDM to you. We can
                   deliver it to you and can arrange to have it delivered and we will pay
                   for shipments.” This e-mail confirmation was also sent to other KCCO
                   managers, DACO and Commodity Operations personnel. Shipments to
                   the feed mill in Indianola, MS, began in March 2003 and by November
                   2003 approximately 24.7 million pounds were delivered. Only a small
                   portion (estimated at less than a ton) of the total 24.7 million pounds of
                   NDM was ultimately utilized in research by the private research center.
                   Ultimately, almost the entire quantity of the NDM was incorporated
                   into commercial catfish feed sold by the private entity to its commercial
                   catfish operators.

                   Accounting for Transportation Expenditures

                   FSA paid the entire transportation charges of nearly $580,000
                   associated with the deliveries. To account for and record the
                   transportation charges paid, KCCO personnel used a miscellaneous
                   donation code on internal accounting records. The miscellaneous
                   donation code was used in lieu of creating a special accounting code for
                   the transportation since it was not expected that this would be a
                   recurring program (see Finding 2 on the transportation costs).

                   KCCO transportation personnel continued to ship NDM during 2003 to
                   the private feed mill and its affiliated research center. The shipments of
                   NDM were included in weekly status reports of commodity operations
                   generated by KCCO and were discussed in staff meetings that DACO
                   participated in. However, DACO stated to us that he had no recollection
                   of approving the additional shipments and stated he would have never
                   authorized such a donation totaling 24.7 million pounds of NDM.

                   Next Feeding Season Commitment Requested

                   On October 7, 2003, the MSU professor contacted the KCCO
                   transportation staff and stated that other than the planned deliveries of
                   NDM for that month, no additional NDM was needed at that time but
                   they planned to use the product again next year (2004). The professor
                   also told them he would be in contact to set up for deliveries beginning
                   in late April or early May 2004. In early November 2003, a
                   representative from the private feed mill asked a KCCO transportation
                   staffer for an additional 100 truckloads or about 4.13 million pounds of
                   NDM and the KCCO staffer forwarded the request to KCCO
                   management for approval. Ultimately, a KCCO Deputy Director

USDA/OIG-A/03099-197-KC                                                               Page 7
                   forwarded the request to DACO inquiring whether DACO would like
                   for KCCO “to continue providing MSU with NDM”.

                   On November 5, 2003, DACO questioned a KCCO Deputy Director on
                   the request and wanted to know what quantities were within CCC’s
                   authority to supply before he would authorize the shipments. However,
                   KCCO managers were unsure of what authority they had used to justify
                   the shipments of NDM earlier that year. At this point, Commodity
                   Operations personnel also made the first inquiry to OGC as to CCC’s
                   authority to complete this request. On November 17, 2003, an OGC
                   attorney advised the Commodity Operations personnel that he knew of
                   no statutory authorization allowing CCC to directly donate its inventory
                   to State universities for research purposes. As an alternative to fulfill
                   the request, another OGC attorney suggested FSA execute an
                   unrestricted sale of NDM to “them” (MSU was implied in the e-mail)
                   for $10 per truckload.

                   It was at this point, FSA National Office and KCCO personnel realized
                   they knew very little about the research project. Accordingly, they
                   decided to contact the MSU professor and requested that he provide
                   FSA with additional information on the project and its planned results.
                   They concluded this information was needed to obtain DACO’s
                   approval for the sale of the requested quantity. In a November 19, 2003,
                   e-mail, the MSU professor explained: “As director of Delta Western’s
                   research center and as a Research Professor at Mississippi State
                   University, my group works closely with the ARS scientists that are
                   involved with the use of leased ponds…In regards to the milk, we plan
                   to continue to use the product in our commercial feeds (emphasis
                   added) but will continue research for at least 3 years with the product.
                   We generally do 3 years of work before we release the information.
                   However, as soon as it is available, I will provide you with the data
                   from the first year.” A copy of this e-mail was sent to senior KCCO
                   management and Commodity Operations personnel, including DACO.
                   In another e-mail on November 19, 2003, the MSU professor also
                   explained to a KCCO Deputy Director that it (Delta Western Research
                   implied) has a cooperative agreement with ARS. However, the e-mail
                   stated that “ARS was not needed for this particular project and is not
                   tied to it.”

                   Misaction Recognized

                   On November 30, 2003, a Commodity Operations employee in an
                   e-mail to DACO summarized that FSA had consulted with OGC and
                   there was no statute under which it could provide NDM as a donation.
                   However, an OGC attorney had recommended to KCCO that it should
                   ask for a proposal and have the private research center purchase the
USDA/OIG-A/03099-197-KC                                                              Page 8
                   NDM at $10 per truckload. In response to that e-mail, the DACO
                   replied that “there was no need to discuss; the $10 per truck was fine
                   with him.” On December 2, 2003, in an e-mail between KCCO
                   mid-level personnel and transportation staff, the proposed sale of NDM
                   for $10 a truckload was mentioned; therefore, KCCO personnel thought
                   that once an agreement had been reached with the professor, someone
                   from Headquarters would provide KCCO with something in writing
                   that would authorize the sale of NDM for catfish feed. In addition, the
                   professor would have to submit a proposal in writing explaining how he
                   planned to utilize the NDM and quantities needed.

                   The only supporting documentation explaining the project that the
                   university or the professor submitted to FSA was received late
                   December 2003 after the 24.7 million pounds of NDM had been
                   delivered. In a memorandum to Commodity Operations personnel, the
                   MSU professor provided some background information about the
                   research center and the feed mill. The memorandum noted that the
                   research center and feed mill were privately owned but had a
                   partnership with MSU. The professor also described his roles at the
                   University as well as directing research for the private entity. Finally,
                   the memorandum described the specific projects that utilized NDM
                   provided by CCC. The memorandum states: “…we have conducted the
                   first year of what is a planned three year study on the use of dried milk
                   in catfish feed. The project is two fold in that we have controlled
                   studies being conducted in research ponds at Delta Western Research
                   Center and we also have a large demonstration project ongoing on
                   commercial catfish farms.”

                   During our review, we confirmed with the professor that only a small
                   portion of the NDM went into the research ponds and the rest of the
                   NDM was used in commercial feed. Although there are USDA research
                   agencies in Mississippi, we found no evidence to support that any other
                   of these USDA research agencies were involved in any of the
                   “demonstration projects” involving use of the donated CCC-owned
                   NDM. Although the professor’s memorandum was sent in December
                   2003, we found no additional documentation supporting either the
                   completed donation or the proposed sale discussed in late 2003 and
                   again in October 2004 (see Finding 3).

                   In summary, OGC indicated that no authority existed for FSA
                   personnel’s actions in completing the donation of NDM quantities at no
                   cost to the private entity. The research in question involved only a
                   nominal quantity of NDM received by the private entity and was not
                   performed by, or in collaboration with, any USDA research agency.
                   CCC had no authority to directly donate any quantity of NDM to the
                   private entity under the auspices of research regardless of the size of
USDA/OIG-A/03099-197-KC                                                              Page 9
                   the donation. FSA needs to refer the matter to legal counsel for
                   consideration and determination of applicable violations of laws,
                   regulations, policies, and procedures, and pursue remedies and
                   penalties as deemed appropriate and enforceable.

Recommendation 1

                   Request a written legal opinion from OGC on whether FSA personnel
                   violated applicable legal authorities to donate and/or provide
                   CCC-owned NDM to a private entity at no cost in 2003.

                   FSA Response

                   The FSA Administrator sent a memorandum to OGC through the
                   Acting Under Secretary for Farm and Foreign Agricultural Services on
                   September 8, 2006, requesting a written legal opinion on the legitimacy
                   of the donation of NDM to a private entity.

                   OIG Position

                   We accept management decision.

Recommendation 2

                   If it is determined that FSA personnel violated the CCC Charter Act or
                   other applicable laws and regulations, initiate appropriate disciplinary
                   actions commensurate with the role played in authorizing, allowing,
                   and/or arranging for the unauthorized disposition of NDM to the
                   private entities.

                   FSA Response

                   After the determination is made as to the legitimacy of the donations to
                   a private entity, the Deputy Administrator for Commodity Operations
                   will review and consult with the Human Resources Division by March
                   2007 on necessary disciplinary actions.

                   OIG Position

                   We accept management decision.

Recommendation 3

                   Consult with OGC as to the actions FSA and/or CCC can and should
                   take to rectify these questionable transactions, including recovery of the

USDA/OIG-A/03099-197-KC                                                             Page 10
                   fair market value of the commodity and transportation expenditures
                   from the private feed mill.

                   FSA Response

                   The FSA Administrator requested guidance from OGC in a
                   memorandum, dated September 8, 2006, as to possible actions required
                   to recover inventory and transportation costs from the private entity.
                   FSA will pursue recovery actions based upon OGC’s guidance. If
                   warranted, recovery actions will be initiated by June 2007.

                   OIG Position

                   We accept management decision.




Finding 2          Potential  Anti-Deficiency    Violation            Regarding        the
                   Expenditure of Transportation Costs

                   During 2003, FSA decided to incur the transportation costs related to
                   shipping the donated NDM to the recipients in Mississippi. FSA
                   officials did not confer with or seek concurrence from the Office of
                   Budget and Program Analysis (OBPA) or the Office of Management
                   and Budget (OMB) personnel to determine if an apportionment for
                   these transportation costs was necessary. They considered the donation
                   as part of their normal Price Support Program operations and activities,
                   which they believed were exempted from apportionment of CCC funds.
                   This action may have resulted in an Anti-Deficiency Act violation if the
                   transportation costs should have been apportioned and accounted for
                   separately.

                   Title 31 of the U. S. Code (U.S.C.) sets forth statutory provisions for
                   the budget process to be followed by the Federal Government and
                   relating to the expenditure of Federal funds. Generally, the term
                   “apportionment process” refers to the process used by OMB to monitor
                   the disbursement of funds by agencies. Title 31 U.S.C. 1511 subsection
                   (a) states, in part, that “appropriations” means (1) appropriated
                   amounts; (2) funds; and (3) authority to make obligations by contract
                   before appropriations. However, 31 U.S.C. 1511 subsection (b) states
                   that the subchapter does not apply to amounts (except amounts for
                   administrative expenses) available for price support and surplus
                   removal of agricultural commodities and under section 32 of the Act of
                   August 24, 1935 (7 U.S.C. 612c). Further, 31 U.S.C. 1517 subsection
                   (a) provides, in part, that an officer of the United States Government

USDA/OIG-A/03099-197-KC                                                            Page 11
                             may not make or authorize an expenditure or obligation exceeding (1)
                             an apportionment or (2) the amount permitted by regulation prescribed
                             under section 1514 (a) of this title. Further, an agency may not exceed
                             the available amount of an administrative subdivision officially directed
                             by the agency and must notify the President and Congress if a violation
                             occurred. 10

                             In our contacts with personnel from FSA Budget Division, OBPA, and
                             OMB, we discussed: (1) the appropriateness of the FSA actions in
                             accounting for the transportation expenditures paid, (2) whether or not
                             an apportionment was required, and (3) the potential ramifications in
                             determining whether the transportation expenditures were appropriately
                             reported in the budget documents submitted to the Department and
                             OMB. In reviewing the documentation supporting the shipments, we
                             noted that KCCO personnel had used an existing accounting code for
                             entering the transportation costs into CCC’s financial systems rather
                             than creating a new one to better classify the expenditures (see Finding
                             1). The miscellaneous donation code used resulted in the recording of
                             the transportation expense under the price support program.

                             FSA Commodity Procurement Policy and Analysis Division (CPPAD)
                             personnel considered the disposition of inventory commodities a
                             function of the Price Support Program, and thus, exempt from the
                             apportionment provisions. In support of their position, they cited past
                             instructions from OMB that expenditures for price support activities did
                             not need to be apportioned and reported to OMB. In a letter, dated
                             August 6, 1996, to the Director, Office of Budget and Program
                             Analysis, OMB advised USDA that “we are aware of the legislative
                             prohibition on apportioning CCC amounts for price support programs
                             and surplus removal of agricultural commodities, and we do not intend
                             to apportion these activities. However, all other activities would be
                             apportioned.”

                             The Director for Agriculture, OMB, apprised us that the OMB position
                             has changed over time with respect to considering dispositions of
                             commodities a function of price support and, thus, exempt from the
                             apportionment provisions. The reference to removal of surplus
                             commodities was originally interpreted to include dispositions of
                             commodities held in storage; however, their current position limits the
                             applicability to acquisitions of commodities, not dispositions (emphasis
                             added). In addition, the Director for Agriculture, OMB, confirmed an
                             existing apportionment exemption for section 32 funds. In general,
10
   U.S.C. Title 31, sec. 1517. “Prohibited obligations and expenditures” – (b) If an officer or employee of the
executive agency or of the District of Columbia government violates subsection (a) of this section, the head of the
executive agency…shall report immediately to the President and Congress all relevant facts and a statement of
actions taken.
USDA/OIG-A/03099-197-KC                                                                                  Page 12
                   OMB’s position was that the authorization used to support an activity
                   determines whether apportionment is applicable or appropriate.

                   We confirmed with the FSA Budget Division that the number of
                   required/requested apportionments had increased over the past few
                   years, to about one hundred per year. However, between 1996 and
                   2004, the only apportionment of funds that had been requested by OMB
                   related to price support activities was for handling, storage, and
                   transportation expenses associated with NDM “dispositions” related to
                   only the 2004 Faith Based NDM Initiative program.

                   In further discussions with the OMB Director for Agriculture, we
                   provided a brief explanation of the circumstances associated with the
                   donation of NDM. In response to our description of the situation, the
                   OMB Director for Agriculture stated that the actions taken were
                   problematic and the agency should provide the facts and circumstances
                   to USDA’s OGC for a legal opinion on whether violations of the
                   Anti-Deficiency Act occurred concerning the transportation
                   expenditures for the transactions.

                   In response to a request initiated during our review, OGC provided us a
                   written opinion, dated December 23, 2005, concerning the applicability
                   and operations of the apportionment process set forth in Title 31 of the
                   U.S.C. with respect to expenditures made by CCC and how those
                   provisions specifically related to expenditures used to transport NDM
                   to a private feed dealer. In the opinion (see exhibit B), the Assistant
                   General Counsel stated OGC was not aware of any document that
                   delineated those CCC programs and activities that are included in the
                   exceptions provided at 31 U.S.C. 1511(b), but believed the application
                   of the exception for price support and surplus removal of agricultural
                   commodities is quite limited, given the broad scope of CCC activities.
                   Although 31 U.S.C. 1511 (b) provides that “administrative expenses” in
                   the conduct of price support or surplus removal activity are subject to
                   the apportionment process, OGC was not aware of any determination to
                   fully address the scope of this phrase. Also, he stated once delivery of
                   the commodities to CCC are completed, the price support or surplus
                   removal has been completed, actions subsequently taken by CCC in the
                   use or disposition of these commodities are not considered price
                   support or surplus removal.

                   In summary, it was OGC’s opinion that: (1) an apportionment approved
                   by OMB is not needed with respect to the expenditure of CCC funds for
                   acquisition and storage of dairy products under Title 1 of the Farm
                   Security and Rural Investment Act of 2002; and (2) any expenditures
                   incurred in the disposition of such products would be subject to such
                   OMB approval. Regarding the lack of an OMB-approved
USDA/OIG-A/03099-197-KC                                                            Page 13
                   apportionment with respect to funds expended for transportation and
                   handling charges associated with NDM donated to a private feed dealer,
                   OGC opined that such expenditures were made in contravention of the
                   process set forth in Title 31 of the U.S.C., specifically 31 U.S.C. 1512
                   and 1517. (The OGC opinion in its entirety is included as exhibit B.)

Recommendation 4

                   Provide the facts and circumstances for the cited condition to the OGC
                   and request a written legal opinion from OGC whether a violation of
                   the Anti-Deficiency Act occurred. Also, report to Congress, as
                   required, if OGC determines that an Anti-Deficiency Act violation
                   occurred.

                   FSA Response

                   In a memorandum, dated September 8, 2006, the FSA Administrator
                   requested OGC provide a written legal opinion on the necessity for an
                   apportionment for the $580,000 transportation costs incurred in 2003
                   for shipping NDM to the private feed mill. If OGC determines that an
                   apportionment should have been obtained, FSA will take all necessary
                   corrective actions, including the report to Congress by September 2007.

                   OIG Position

                   We accept management decision.

Recommendation 5

                   Issue written policy that requires consultation with and concurrence by
                   OMB regarding when transportation and handling expenditures for
                   commodity dispositions need to be apportioned on appropriate
                   apportionment schedules submitted to OMB.

                   FSA Response

                   Starting with FY 2007, FSA implemented processes to request
                   apportionments from OMB for all CCC inventory dispositions costs
                   such as transportation and handling. FSA will issue internal written
                   procedures requiring apportionments for these types of expenses by
                   August 2007.

                   OIG Position

                   We accept management decision.

USDA/OIG-A/03099-197-KC                                                            Page 14
Finding 3                       FSA Pursued a Single Source Restricted Sale of NDM
                                Against OGC’s Advice

                                FSA personnel completed a restricted use sales agreement for 2005
                                distribution of NDM for catfish feed without the concurrence of OGC.
                                The sales agreement was between an experiment station at MSU and
                                CCC. However, the restricted sales agreement involved scheduled
                                deliveries to the private feed mill and research center, like the donation
                                of NDM in 2003 (see Finding 1). In addition, FSA did not attempt to
                                follow traditional sales procedures for CCC-owned dairy products or
                                maximize the returns to the Corporation by obtaining competitive bids
                                or offering the commodity for sale at the market value to other potential
                                interested parties. This occurred due to lack of a cohesive management
                                control structure (see Finding 4) and because responsible FSA
                                personnel ignored OGC advice to sell the NDM on competitive basis
                                and pursued the sale of NDM on a non-advertised/sole source basis at
                                minimal cost. As a result, FSA was in the process of shipping NDM
                                when the former FSA Administrator learned that OGC had not
                                concurred with the proposed sale and his office interceded and
                                terminated the sale.

                                The Agricultural Act of 1949 11 states “the Corporation may sell any
                                basic agricultural commodity or storable non-basic commodity on a
                                competitive bid basis (emphasis added), if the sale is determined to be
                                appropriate by the Secretary.” With regard to selling commodities, the
                                Charter Act 12 states the Corporation shall, to the maximum extent
                                practicable, utilize the usual and customary channels, facilities, and
                                arrangements of trade and commerce. Commodities acquired under
                                price support can be sold for unrestricted use domestically at prices
                                which are not below minimums prescribed by law. Commodities may
                                also be sold for restricted uses or outlets at the highest prices
                                determined obtainable considering the quantity and condition of the
                                commodity to be sold. Commodities which have substantially
                                deteriorated in quality or which are in danger of loss can be sold below
                                price minimums.

                                The usual and customary channels previously used by FSA for the sale
                                of dairy products involve issuance of announcements for sales of dairy
                                products and invitations to bid to interested parties. These types of sales
                                use either competitive bidding or announced market prices (fixed) as
                                determined by CCC.

11
     Agricultural Act of 1949, section 407(f)(3), dated October 31, 1949, as amended.
12
     CCC Charter Act, section 5, “Specific Powers,” dated June 30, 1948.
USDA/OIG-A/03099-197-KC                                                                           Page 15
                             After the donation of NDM during 2003 to the private feed mill and
                             affiliated research center (see Finding 1) nearly a year went by before
                             the idea of utilizing NDM in catfish feed came up again. 13 In
                             September 2004, [                  ] Staff from the Senate Agriculture
                             Committee met with DACO to discuss a sale of NDM to a group 14 that
                             included the private research arm of the private feed mill. During the
                             course of subsequent discussions among representatives for MSU,
                             DACO, and representatives from the FSA Administrator’s Office, it
                             was agreed FSA would sell 7,500 short tons (15 million pounds) to
                             MSU. In February 2005, personnel from CPPAD drafted a
                             Memorandum of Understanding (MOU) to sell MSU 15 million pounds
                             of NDM at $275 per truckload to be used in a catfish feed study.
                             However, OGC attorneys rejected the draft MOU and said the
                             agreement needed to be a competitive sales agreement. Also, OGC
                             attorneys informed CPPAD that the draft MOU had to be revised to
                             comply with section 4(m) of the Charter Act 15 since the purpose of this
                             arrangement was ostensibly to finance research activities. That is, the
                             MOU had to include collaboration with research agencies of the
                             Department of Agriculture.

                             On March 17, 2005, after receiving notice of the OGC rejection, an
                             employee from CPPAD discussed OGC’s concerns with DACO in
                             which he advised that the revised document had to be a sales agreement
                             and not an MOU. The CPPAD employee explained there were existing
                             announcements offering NDM for sale that they could use to have MSU
                             provide offers or bids for. However, DACO was reluctant to use a
                             competitive sale because he was concerned MSU might not be
                             successful in obtaining the bid or award.

                             Later in March 2005, CPPAD personnel decided against using the
                             existing competitive announcement sales process and proceeded to
                             complete a sole source sales agreement with MSU 16 . A new
                             noncompetitive sales agreement was prepared and submitted to OGC
                             for concurrence. However, OGC attorneys again rejected this sales
                             agreement due to its noncompetitive provisions and again informed
                             FSA it would only clear such sale for legal sufficiency if it was
                             conducted under a competitive announcement. FSA officials then

13
   Correspondence from the MSU professor indicated that his studies would start in the month of April so he needed
advance notice to determine whether to contract with other sources to obtain needed protein sources.
14
   The “Group” included the Thad Cochran National Warmwater Aquaculture Center, Delta Branch Experiment
Station, MSU, and the private research center.
15
   CCC Charter Act, 15 U.S.C. 714b, section 4.(m), as amended.
16
   The sales agreement identified the purchaser as Mississippi Agriculture and Forestry Experiment Station, MSU,
and the delivery site was the private research center in Indianola, MS.

USDA/OIG-A/03099-197-KC                                                                                 Page 16
                                considered conducting the sale by announcing an invitation to bid with
                                a very restrictive window (only a few hours) for submitting offers to
                                limit participation so only MSU would be able to bid. Despite OGC’s
                                advice, the CPPAD Director ultimately proceeded with the sole source
                                sales agreement.

                                At the time the CPPAD staff sent the proposed sole source agreement
                                to KCCO for processing, KCCO officials were already aware that OGC
                                had previously stipulated that it would not clear any written agreement
                                for a sale of NDM to MSU unless it was conducted competitively.
                                When the sole source sales agreement was presented to KCCO for
                                signature by a contracting officer, these officials were reluctant to
                                execute the agreement terms without authority or written approval from
                                either DACO or CPPAD. However, the Acting DACO, who was not
                                actively involved with drafting the MOU or final noncompetitive sales
                                agreement, sent an e-mail to KCCO stating “the purpose of this e-mail
                                is to authorize the sale of Commodity Credit Corporation (CCC)-owned
                                nonfat dry milk to the Mississippi Agricultural and Forestry Experiment
                                Station, Mississippi State University under Section 165 of the
                                Agricultural Market Transition Act, 7 U.S.C. 7285 and CCC Docket
                                P-COM-98-006 dated May 11, 1998, using the Nonfat Dry Milk
                                Restricted Use Sales Agreement For Catfish.”

                                On the basis of the e-mail from the Acting DACO, a KCCO contracting
                                officer signed the agreement and KCCO started the process of
                                identifying trucks to transport the stated quantity of NDM to the
                                approved delivery point. However, the Director of KCCO remained
                                concerned about the propriety of sale and asked CPPAD whether OGC
                                had, in fact, cleared the sales agreement for legal sufficiency. When he
                                was told OGC had not cleared the agreement, the Director relayed his
                                concerns to the Administrator. In response to this information, the
                                Associate Administrator halted the sale based on these concerns on
                                April 28, 2005, and three trucks carrying NDM in route to the private
                                feed mill were immediately diverted to other authorized locations and
                                the sales agreement was cancelled.

                                Although the sale was cancelled, at least one more attempt was made in
                                early May 2005, to develop a competitive sales contract that would be
                                limited to colleges and universities and for catfish feed research
                                purposes. However, on May 5, 2005, an OGC attorney identified the
                                restrictions involving research from the CCC Charter Act17 and advised
                                that “efforts to evade this prohibition will not be approved by this
                                office.”

17
     CCC Charter Act, – 15 U.S.C. 714b, section 4. (m).
USDA/OIG-A/03099-197-KC                                                                         Page 17
                             Non-Competitive Sale

                             We could not locate any policy, procedure, or precedent that would
                             allow FSA to execute a sole source sale of NDM at a price well below
                             market value. The CCC’s sales docket 18 cites various statutes including
                             the CCC Charter Act’s requirement to utilize customary channels for
                             the sale of commodities. FSA customarily uses announcements to sell
                             NDM. An official from KCCO’s Dairy and Domestic Operations
                             Division said this was the only instance of CCC attempting to sell
                             NDM outside of the competitive bidding process.

                             The documented authorities provided to us to justify the sale, in fact,
                             show CCC did not follow these prescribed statutes, policies, or
                             precedents in executing the sale. OGC attorneys stated in returning the
                             MOU agreement to FSA without concurrence that: “the legal concern is
                             simply that there is no rationale basis to favor one entity over another,
                             nor is there a basis to simply give away assets of CCC – in this case it
                             get(s) real close to giving an asset away if you don’t maximize the
                             return.”

                             Communication Problems

                             Communication problems occurred among personnel within FSA
                             Commodity Operations. The Domestic Program Branch Chief, under
                             CPPAD, was assigned responsibility for putting the sales agreement
                             together and coordinating with OGC in completing the sales proposal
                             and obtaining OGC clearance for the sale and its supporting documents.
                             However, when discussing OGC’s concerns with upper management,
                             the Branch Chief mentioned only that OGC had advised him the sale
                             had to be conducted on a competitive basis before they would concur
                             with the written agreement and the research restriction was not
                             discussed. The Director of CPPAD initially claimed to us that he was
                             not told of any of OGC’s concerns so he had went ahead with a
                             noncompetitive sales agreement with no restrictions on the use of the
                             NDM. However, DACO asserted to us, that had he known of the
                             research restriction, he would have stopped the sale.

                             Returns Not Maximized

                             Under the contract, FSA agreed to sell 15 million pounds of NDM at
                             $275 per truckload, which amounted to under $100,000. According to
                             the Director of KCCO, NDM being sold had an estimated market value
                             of between $7 and $10 million. The price of $275 per truckload was

18
     CCC Docket P-COM-98-006, dated May 11, 1998.
USDA/OIG-A/03099-197-KC                                                                      Page 18
                   consistent with the price at which NDM was sold to State and Tribal
                   Governments under the 2004 Nonfat Dry Milk Livestock Feed
                   Assistance Initiative (NDMA). FSA used this initiative as the template
                   for constructing the NDM sale and preparing the supporting agreement
                   documents. However, the 2004 NDMA was a disaster assistance effort
                   directed toward livestock producers in drought affected counties and
                   States. There was no cost benefit analysis prepared supporting that the
                   sales price and other cost considerations maximized the return to the
                   Corporation.

                   In our view, the price at which NDM was proposed for sale to the State
                   University was not reasonably based. First, NDM provided was not
                   denatured and, thus, was still suitable for human consumption. Second,
                   the established price did not represent an attempt to maximize returns to
                   the Corporation in that it did not include recovery of the price support
                   and handling charges. Third, the established price was not reflective of
                   the market price that existed at the time the sale was negotiated.
                   Information obtained from the FSA Intranet supports restricted and
                   unrestricted sales of NDM in 2004 and 2005 at prices of $.60 to $.90
                   per pound.

                   On June 7, 2005, FSA’s former Administrator required his approval of
                   all sales or donations of CCC-owned commodity assets (no matter the
                   quantity or quality) made noncompetitively or through any
                   nontraditional manner. However, this requirement was put forth in a
                   memorandum to DACO and has not been formalized in FSA’s internal
                   policies and procedures or the CCC docket. While this policy was set
                   forth in response to the case in question, FSA needs to establish policy
                   and procedures that address the entire scope of decision making relative
                   to proposed sales and donations of inventory commodities, in an effort
                   to avoid the occurrence of similar misunderstandings and improper
                   transactions in the future.

Recommendation 6

                   Develop formal written procedures that provide a structured process for
                   evaluating options for dispositions of inventory commodities
                   (donations and sales), including entity and position specific decision
                   making authorities, required consultations with and concurrences
                   required from other parties (CCC Board of Directors, OGC, etc.), and
                   documentation requirements.

                   FSA Response

                   The FSA Administrator has directed the Acting Deputy Administrator
                   for Commodity Operations to develop the formal written procedures for
USDA/OIG-A/03099-197-KC                                                            Page 19
                   the Administrator’s approval and to have procedures in place for FY
                   2007. Commodity Operations plans to formalize the procedures in
                   internal handbooks by March 2007. Until such time as the procedures
                   are completed, Commodity Operations will obtain the Administrator’s
                   approval of inventory disposition decisions.

                   OIG Position

                   We accept management decision.

Recommendation 7

                   Codify the requirement in FSA’s directive management system and/or
                   CCC’s docket put forth in the Administrator’s memorandum dated
                   June 7, 2005, that the CCC Executive Vice President or his/her
                   designee shall approve all sales or donations that are non-competitive
                   or made through any non-traditional manner.

                   FSA Response

                   FSA agrees to codify the requirements in the Agency’s directives
                   management system for approval from CCC’s Executive Vice
                   President or his designee on all non-competitive or non-traditional sales
                   and donations of inventory. This action should be completed by March
                   2007.

                   OIG Position

                   We accept management decision.

Recommendation 8

                   Initiate personnel disciplinary actions commensurate with the role
                   played in continuing to pursue a sale of NDM in 2005 against OGC’s
                   advice and in violation of standing laws, regulations, and procedures.

                   FSA Response

                   FSA had reassigned the duties and responsibilities of an employee in
                   October 2005. The reassignment was prompted by several factors
                   including the attempted sales transaction that occurred in April 2005.

                   OIG Position

                   We accept management decision.

USDA/OIG-A/03099-197-KC                                                            Page 20
Section 2. Cohesive Management Control Structure Needed over Commodity
Dispositions



Finding 4          FSA Lacks Formal Decision Making Process for CCC
                   Commodity Dispositions

                   FSA lacks a cohesive and comprehensive management control structure
                   to ensure that commodity inventory assets are disposed of in
                   accordance with the Corporation’s disposition polices and all legal
                   requirements. Specifically, the FSA has not developed written policies
                   and procedures governing the disposition of CCC-owned commodities.
                   CCC senior management has delegated full authority and responsibility
                   for commodity donations to its Commodity Operations with only a
                   general disposition policy to guide particular commodity disposals.
                   Without established procedures that demonstrate how to apply the
                   general CCC disposition policies to specific CCC-owned commodity
                   disposal situations, FSA managers and staff are left to implement FSA
                   guidelines as they see fit. As a result, FSA disposed of NDM in a
                   manner that circumvented regulations for disposing of CCC-owned
                   commodities in violation of the CCC Charter Act. (See section 1.)

                   CCC Docket P-COM-98-006, “Policies Regarding Management of
                   Commodity Credit Corporation Commodities and Materials and
                   Delegation of Responsibility,” establishes policies and delegates
                   responsibilities of management of CCC commodities and materials in
                   accordance with various statutes. This includes but is not limited to the
                   Agricultural Act of 1949, as amended, the Food Security Commodity
                   Reserve Act of 1996 and the CCC Charter Act, as amended, and
                   designates the officers of CCC and employees of USDA who are
                   authorized to carry out policies of CCC with respect to these matters.
                   The major provisions of the docket are:

                      •   Except to the extent determinations are made by the Secretary
                          of Agriculture or by CCC’s Board of Directors, the CCC
                          President or The CCC Executive Vice President is authorized to
                          determine the availability of commodities for sale or other
                          disposition. This authority may not be delegated.

                      •   Principal responsibility for policies in connection with the
                          domestic storage, handling, and disposal of commodities is
                          delegated to the Deputy Administrator for Commodity
                          Operations, FSA, who is also the Deputy Vice President, CCC.
                          This includes the authority to determine the methods and
USDA/OIG-A/03099-197-KC                                                            Page 21
                                   pricing of these merchandising activities and the general terms
                                   and conditions of sales and other disposals.

                               •   Principal responsibility for policies in connection with export
                                   sales is delegated to the General Sales Manager, who is also a
                                   CCC Vice President.

                           CCC’s policy per the docket is to dispose of all commodities and
                           materials acquired by CCC as rapidly and orderly as possible. The term
                           commodities include agricultural commodities and products, including
                           value added or high value products. In making disposals, CCC shall to
                           the maximum extent practicable, consistent with the fulfillment of its
                           purposes and the effective and efficient conduct of its business, utilize
                           the customary channels, facilities, and arrangements of trade and
                           commerce.

                           CCC records showed that in Fiscal Year 2003, it sold and donated over
                           $5.2 billion 19 in various CCC-owned commodities. This figure shows
                           the expenditure of significant resources by FSA to dispose of
                           commodities within CCC’s programs and indicates the need for a
                           cohesive management control structure and management oversight.
                           However, we found that FSA did not have in-depth written policies
                           regarding both sales and donations of commodities and did not provide
                           proper senior management oversight of these dispositions.

                           Lack of Management Oversight

                           OGC attorneys informed Commodity Operations personnel that the
                           donation of NDM would have to comply with section 4(m) of the
                           Charter Act 20 and had to include collaboration with research agencies
                           of the Department of Agriculture. By not confirming the involvement
                           of USDA research agencies, FSA was essentially misappropriating
                           CCC assets to the feed mill and its customers and appropriating funds
                           to cover transportation expenditures.

                           CCC’s donation of commodities at no cost that would be sold by the
                           feed mill for its benefit and that of its customers, and FSA’s
                           determination to supplant competitive sale(s) with the sole source
                           donation and sales agreements raises questions about the Commodity
                           Operations exercise of its delegated authority. Furthermore, we found
                           no documentation evidencing that the availability of NDM for the
                           purpose of manufacturing catfish feed had been properly approved by

19
   The $5.2 billion includes commodities acquired through Price Support Programs and commodities acquired
specifically for sales or donations.
20
   CCC Charter Act, 15 U.S.C. 714b, section 4. (m), as amended.
USDA/OIG-A/03099-197-KC                                                                         Page 22
                   CCC officers and/or officials. We concluded that CCC officers and
                   FSA senior managers need to be more closely involved in CCC-owned
                   commodity dispositions and in the decision-making process for these
                   transactions.

                   Written Policies

                   After our review started, FSA prepared a desk reference entitled, “Farm
                   Service Agency Commodity Operations Sales Procedures,” which
                   includes CCC sales policies and procedures, indicating how sales are
                   conducted in accordance with governing authorities. The procedures
                   were intended to be used by the commodity merchandisers at KCCO
                   when selling CCC-owned commodities. FSA itself has not produced
                   any written policy of its own for donating CCC-owned assets, like
                   NDM that it acquires routinely over the years.

                   This FSA reference policy is general and reflects the relevant language
                   of the CCC Charter Act, Federal Agricultural Improvement and Reform
                   Act of 1996, and CCC Docket No. P-COM-98-006, “Policies regarding
                   Management of Commodity Credit Corporation Commodities and
                   Materials and Delegations of Responsibilities,” in summary or general
                   terms. However, the guidance was meant to apply to the activities of
                   the FSA KCCO and is worded broadly rather than specific. For
                   example, the desk reference identifies the types of sales that CCC is
                   involved with, such as, negotiated sales or sealed bids, and whether
                   there are limitations on the final use, unrestricted sales versus restricted
                   sales; but, the desk reference fails to identify the decision-making
                   process or authority for ultimately determining the proper sale type and
                   final use requirements to be followed for proposed sales. In addition,
                   the guidance does not reference the type of analysis necessary to
                   support how the final sales price is determined; that is, what factors
                   were considered, such as a cost/benefit determination to support the
                   final sales price determination and what other costs the Corporation
                   should bear.

                   There are no CCC and/or FSA specific operational procedures for
                   determining domestic dispositions for CCC commodities; the FSA
                   Commodity Operations has been delegated the authority for domestic
                   sales and donations. We concluded that FSA should issue additional
                   written policies and procedures regarding the disposition operations for
                   CCC commodities. Such policy and operational procedures should
                   address the decision points that result in selection of the proper means
                   (sales or donations); the type of instrument (contract or agreement); and
                   the use or traditional announcements or notices to publicize disposition
                   activities (e.g., Notices to the Trade) or nontraditional methods to
                   dispose of commodities. Specifically:
USDA/OIG-A/03099-197-KC                                                               Page 23
                      1. FSA should not sell or donate CCC-owned commodities
                         without having a binding contract or agreement in place. The
                         FSA KCCO continued to ship millions of pounds of NDM to
                         the private feed mill and research center at no cost in the
                         absence of a written commitment and an agreement or contract
                         with the entity was never completed for the arrangement.

                      2. As a general rule, FSA should not use an agreement when sales
                         contracts are justified. The CCC Charter Act and the CCC
                         Docket do not provide whether agreements or contracts are the
                         preferred instrument for disposition. To initiate an agreement to
                         donate NDM to the private feed mill and affiliated research
                         center, FSA ignored a contract method of disposal at announced
                         prices it had used in past years and later patterned a failed sales
                         agreement in 2005 based on a legal instrument it had used in the
                         2003 Livestock Feed Initiatives, a disaster assistance program
                         for livestock producers.

                      3. To the maximum extent practicable, CCC should always sell or
                         donate CCC-owned commodities in a manner that maximizes
                         the return to the corporation. The FSA Commodity Operations
                         improperly donated NDM for commercial feed manufacturing
                         purposes at no cost to the private feed mill and research center.
                         Subsequent attempts to later sell additional quantities of NDM
                         to these entities were to be at nominal costs and far below the
                         actual market value of the commodity for animal feed uses.
                         Furthermore, the proposed sales price would have not covered
                         the costs to CCC of preparing, handling, and transporting the
                         commodities to the entities. There was no cost benefit
                         documentation showing that other alternatives were considered
                         or analysis prepared showing that returns to the Corporation
                         were being maximized by these transactions.

                      4. FSA should ensure competition for sales contracts and donation
                         agreements to the maximum extent practicable. There is no
                         clear policy or procedure regarding the justification needed for
                         sales or donation agreements entered into without competition.
                         The responsible FSA Commodity Operations personnel and the
                         KCCO personnel offered no justification for entering into a
                         noncompetitive donation arrangement and later an attempted
                         noncompetitive sales agreement with the private feed mill and
                         research center and MSU. Competitive proposals should be
                         solicited for commodity donation initiatives and evaluated on
                         their merits as to those providing the most benefits. CCC policy
                         should also offer guidance on preparing an agreement to ensure
USDA/OIG-A/03099-197-KC                                                            Page 24
                          the instruments meet the appropriate criteria and legal
                          requirements, specifically:

                             a. Agreements need to acknowledge the ownership of any
                                commodity assets CCC contributes, giving CCC the
                                option of recovering or disposing of these assets when
                                the agreement terminates. There was no reference or
                                agreement in the initial donation arrangement or the
                                subsequent draft agreement and instruments for
                                disposing of any leftover CCC-provided commodities
                                after the research project concluded. Almost all of the
                                NDM CCC donated was utilized in a commercial catfish
                                feed manufacturing endeavor rather than a research
                                purpose as asserted by the FSA Commodity Operations
                                staff.

                             b. Agreements need to specify the activities the cooperator
                                will engage in as part of its participation. The unwritten
                                arrangement with the private feed mill and research
                                center had no agreement on what specific activities
                                would be accomplished by them. There was no written
                                deliverable or final report requested by FSA evidencing
                                what results had been achieved by the endeavor.

                             c. The involvement of OGC in developing and approving
                                agreements and sales contracts needs to be documented
                                in relation to commodity dispositions. FSA needs to
                                coordinate relevant program activities with OGC to
                                ensure that decisions affecting policies and regulations
                                comply with authorizing legislation.

Recommendation 9

                   Develop a cohesive management control structure within the
                   Commodity Operations for the disposition of CCC commodities to
                   include the management decision process to properly evaluate sales
                   and/or donation options.

                   FSA Response

                   By March 2007, Commodity Operations will develop and implement a
                   decision process required for all CCC inventory disposition decisions.
                   The decision process will include a review of authorities, obtaining
                   appropriate approvals from senior management, and evaluation of the
                   associated costs.

USDA/OIG-A/03099-197-KC                                                          Page 25
                    OIG Position

                    We accept management decision.

Recommendation 10

                    In consultation with OGC, develop and issue commodity donation
                    guidelines that are based on the decision process and policies
                    developed in Recommendation 9.

                    FSA Response

                    FSA agrees to formalize the CCC inventory management controls and
                    to request OGC review for legal sufficiency the commodity donation
                    guidelines developed in response to Recommendation 9. FSA will seek
                    OGC input by March 2007 on the commodity donation guidelines.


                    OIG Position

                    We accept management decision.




USDA/OIG-A/03099-197-KC                                                        Page 26
Scope and Methodology
                   Our review was conducted at the FSA National office (NO) in
                   Washington D.C., KCCO in Kansas City, Missouri; Mississippi State
                   University (MSU) in Starkville, Mississippi; and a private feed mill and
                   its affiliated research center in Indianola, Mississippi. We conducted
                   our fieldwork from May 2005 to January 2006.

                   To accomplish our objectives, we performed the following procedures.

                   •   Reviewed applicable laws and regulations concerning the donation
                       and sale of CCC-owned commodities and the apportionment of
                       appropriated funds to account for transportation expenditures
                       associated with the donation of the commodities. This included the
                       CCC Charter Act, the applicable CCC Dockets, and the
                       Anti-Deficiency Act, as well as other authorities deemed necessary.

                   •   Reviewed internal CCC policies and procedures concerning the
                       donation and sale of CCC-owned commodities as well as
                       accounting for the donation and expenditure of transportation
                       charges.

                   •   Examined files and other agency records from FSA, KCCO, and the
                       private research center supporting the donation and proposed sale of
                       commodities as well as the payment of transportation expenses.

                   •   Interviewed FSA NO and KCCO officials, MSU officials, and
                       officials from the private research center and feed mill responsible
                       for negotiating and arranging the donation and the sale of CCC
                       commodities and performing research on catfish nutrition.

                   •   Interviewed officials from OGC regarding their involvement in the
                       donation and the sale of dairy products.

                   •   Interviewed officials from OMB, USDA’s OBPA, and FSA Budget
                       personnel related to the apportionment of funds.

                   We conducted our review in accordance with Government auditing
                   standards.




USDA/OIG-A/03099-197-KC                                                            Page 27
Exhibit A – Summary of Monetary Results
                                                                       Exhibit A – Page 1 of 1



Finding   Recommendation
Number        Number              Description          Amount          Monetary Results
                            Market value for 24.7
                               million pounds of
                              NDM donated to a
                            private research center
                           in violation of the CCC                  Questioned Costs/Loans,
  1             3                 Charter Act         $19,782,133   Recovery Recommended
                              Funds expended for
                           transportation costs for
                                   which an
                           apportionment was not
                             approved in possible
                             violation of the Anti-                 Questioned Costs/Loans,
  1             3               Deficiency Act         $579,388     Recovery Recommended




USDA/OIG-A/03099-197-KC                                                            Page 28
Exhibit B – OGC Opinion
                          Exhibit B – Page 1 of 4




USDA/OIG-A/03099-197-KC               Page 29
Exhibit B – OGC Opinion
                          Exhibit B – Page 2 of 4




USDA/OIG-A/03099-197-KC               Page 30
Exhibit B – OGC Opinion
                          Exhibit B – Page 3 of 4




USDA/OIG-A/03099-197-KC               Page 31
Exhibit B – OGC Opinion
                          Exhibit B – Page 4 of 4




USDA/OIG-A/03099-197-KC               Page 32
Exhibit C – Agency Response
                              Exhibit C – Page 1 of 6




USDA/OIG-A/03099-197-KC                   Page 33
Exhibit C – Agency Response
                              Exhibit C – Page 2 of 6




USDA/OIG-A/03099-197-KC                   Page 34
Exhibit C – Agency Response
                              Exhibit C – Page 3 of 6




USDA/OIG-A/03099-197-KC                   Page 35
Exhibit C – Agency Response
                              Exhibit C – Page 4 of 6




USDA/OIG-A/03099-197-KC                   Page 36
Exhibit C – Agency Response
                              Exhibit C – Page 5 of 6




USDA/OIG-A/03099-197-KC                   Page 37
Exhibit C – Agency Response
                              Exhibit C – Page 6 of 6




USDA/OIG-A/03099-197-KC                   Page 38
Informational copies of this report have been distributed to:

Administrator, FSA
ATTN: Agency Liaison Officer                                    (10)
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Director, Planning and Accountability Division, OCFO             (1)
